APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the United States Court of
Appeals for the Eleventh Circuit, No.
19-11305-J
(July 8, 2019). . . . . . . . . . . . . . . . . App. 1
Appendix B Judgment in a Civil Case in the
United States District Court, Middle
District of Florida, Ocala Division, No.
5:16-cv-60-Oc-32PRL
(March 7, 2019) . . . . . . . . . . . . . . . App. 2
Appendix C Order in the United States District
Court, Middle District of Florida,
Ocala Division, No. 5:16-cv-60-Oc32PRL
(March 6, 2019) . . . . . . . . . . . . . . . App. 4
Appendix D Order in the District Court of Appeal
of the State of Florida, Fifth District,
No. 5D15-1744
(March 8, 2016) . . . . . . . . . . . . . . App. 33
Appendix E Order in the Circuit Court of the Fifth
Judicial Circuit in and for Lake
County, Florida, No. 2010-CF-982 (04)
(April 21, 2015) . . . . . . . . . . . . . . App. 35
Appendix F Decision in the District Court of
Appeal of the State of Florida, Fifth
District, No. 5D11-3658
(March 5, 2013) . . . . . . . . . . . . . . App. 50

ii
Appendix G Decision in the District Court of
Appeal of the State of Florida, Fifth
District, No. 5D15-1744
(February 9, 2016) . . . . . . . . . . . App. 52
Appendix H Judgment in the Circuit Court of the
Fifth Judicial Circuit in and for Lake
County, Florida, No. 2010 CF 000982
(September 13, 2011) . . . . . . . . . App. 54
Appendix I Constitution and Statutes
U.S. Const. Amend. V . . . . . . . . .
U.S. Const. Amend. VI . . . . . . . .
U.S. Const. Amend. VIX . . . . . . .
28 U.S.C. § 2254 . . . . . . . . . . . . .

App. 83
App. 83
App. 84
App. 86

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11305-J
[Filed July 8, 2019]
___________________________________
CHESLEY EUGENE SAUNDERS,
)
Petitioner-Appellant,
)
)
versus
)
)
SECRETARY, DEPARTMENT
)
OF CORRECTIONS, FLORIDA
)
ATTORNEY GENERAL,
)
Respondents-Appellees.
)
___________________________________ )
Appeal from the United States District Court
for the Middle District of Florida
_____________________
ORDER:
Chesley Eugene Saunders’s motion for a certificate
of appealability is DENIED because he has not made a
substantial showing of the denial of a constitutional
right. See 28 U.S.C. § 2253(c)(2).
/s/
UNITED STATES CIRCUIT JUDGE

App. 2

APPENDIX B
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
Case No: 5:16-cv-60-Oc-32PRL
[Filed March 7, 2019]
___________________________________
CHESLEY EUGENE SAUNDERS,
)
)
Petitioner,
)
)
v.
)
)
SECRETARY, DEPARTMENT OF
)
CORRECTIONS and FLORIDA
)
ATTORNEY GENERAL
)
)
Respondents.
)
___________________________________ )
JUDGMENT IN A CIVIL CASE
Decision by Court. This action came before the Court
and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
Pursuant to the Court’s Order entered on March 6,
2019, this case is hereby dismissed with prejudice.

App. 3
ELIZABETH M. WARREN, CLERK
s/L. Kirkland, Deputy Clerk
***
[Civil Appeals Jurisdiction Checklist
Omitted in the Printing of this Appendix]

App. 4

APPENDIX C
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION
Case No. 5:16-cv-60-Oc-32PRL
[Filed March 6, 2019]
___________________________________
CHESLEY EUGENE SAUNDERS,
)
)
Petitioner,
)
)
v.
)
)
SECRETARY, DEPT. OF
)
CORRECTIONS, et al.,
)
)
Respondents.
)
___________________________________ )
ORDER
I. Status
Chesley Eugene Saunders, an inmate in the custody
of the State of Florida serving a 25-year sentence for
sexual battery, has filed a counseled petition for a writ
of habeas corpus under 28 U.S.C. § 2254 (Doc. 1)
seeking to set aside his conviction and sentence in state
court. Respondents have filed a response and appendix;
Petitioner has filed a Reply. (Docs. 6, 7, 8.) Because it
affirmatively appears from the record already compiled

App. 5
that the petition is due to be denied, no evidentiary
hearing is required. See Rule 8, Rules Governing
Section 2254 cases.1
II. History of the Case
September 7, 2011. A Lake County jury found
Petitioner guilty of one count of sexual battery on a
physically helpless person. Petitioner was sentenced on
September 26, 2011, to 25 years imprisonment.
(Respondent’s Appendix, Doc. 7, Exh. A, pp.130, 180187) (hereafter “Resp. Exh.”; Petitioner’s Exhibits at
Doc. 1 will be referred to as “Pet. Exh.”) At trial, the
victim testified that she was at the home of Petitioner’s
girlfriend and fell asleep on the couch. She woke up to
find Petitioner having intercourse with her. She called
her ex-husband, who notified the police, and a law
enforcement took her for a physical examination. (Pet.
Exh. A, pp. 167-202.) Petitioner did not testify at trial,
but maintained that the victim was awake and that the

1

“In a habeas corpus proceeding, the burden is on the petitioner to
establish the need for an evidentiary hearing.” Jones v. Sec’y, Fla.
Dep’t of Corr., 834 F.3d 1299, 1318 (11th Cir. 2016) (citing Chavez
v. Sec’y Fla. Dep’t of Corr., 647 F.3d 1057, 1060 (11th Cir. 2011)).
“In deciding whether to grant an evidentiary hearing, a federal
court must consider whether such a hearing could enable an
applicant to prove the petition’s factual allegations, which, if true,
would entitle the applicant to federal habeas relief.” Schriro v.
Landrigan, 550 U.S. 465, 474 (2007) (citation omitted). “It follows
that if the record refutes the applicant’s factual allegations or
otherwise precludes habeas relief, a district court is not required
to hold an evidentiary hearing.” Id. The pertinent facts of this case
are fully developed in the record before the Court, and “further
factual development” is not necessary. Turner v. Crosby, 339 F.3d
1247, 1275 (11th Cir. 2003).

App. 6
contact was consensual. (Resp. Exh. B, Trial Transcript
Vol. III, pp. 15-16.)
Prior to trial, the state filed a Notice of Intent to
Offer Evidence of Other Crimes, Wrongs, or Acts,
seeking to introduce evidence of a 1999 incident where
Petitioner was accused by another woman of waking up
on the couch after drinking and smoking marijuana to
find Petitioner having intercourse with her. Petitioner
was prosecuted for sexual battery, and adjudication
was withheld. (Resp. Exh. A, pp. 25-26.) Counsel for
Petitioner filed a motion in limine seeking to exclude
introduction of evidence of the 1999 crime. (Id. at pp.
43-46.) The trial court granted in part and denied in
part the motion in limine: “Evidence concerning the
facts of the Defendant’s 1999 sexual battery offense
may be entered into evidence in this case only to rebut
an allegation by the Defendant that he believed the
victim in this case consented to having sexual activity
with him.” (Id. at pp. 103-05.)
March 5, 2013. Petitioner’s conviction and sentence
were affirmed per curiam and without written opinion.
(Resp. Exh. E, p. 13); Saunders v. State, 109 So.3d 222
(Fla. 5th DCA 2013).
August 22, 2013. Petitioner retained the firm of
Whittel and Melton to represent him in his Florida
Rule of Criminal Procedure 3.850 proceedings. (Pet.
Exh. W.)
March 6, 2014. Because counsel had not yet filed a
Rule 3.850 motion, Petitioner filed a pro se motion for
post-conviction relief pursuant to Rule 3.850. (Resp.
Exh. G, pp. 495-502.) On that date Petitioner also

App. 7
wrote post-conviction counsel at Whittel and Melton:
“Please DO NOT file a Rule 3.850 motion on my behalf
. . . Now I must represent myself or else be
procedurally barred because of your negligent delay
and unprofessional errors. I might ask for your
representation at an evidentiary hearing if one is
ordered by the court. I will represent myself until then
. . .” (Pet. Exh. J) (emphasis in original) (internal
citations omitted).
April 9, 2014. The trial court struck the pro se Rule
3.850 motion as legally insufficient with leave to amend
within 60 days or risk denial of the motion. (Pet. Exh.
L.)
April 23, 2014. Petitioner retained Brownstone
P.A. to represent him in the Rule 3.850 proceedings.
(Pet. Exh. N.)
June 9, 2014. Attorney Matthew McLain entered a
notice of limited appearance in Petitioner’s Rule 3.850
proceedings. He also requested a 45-day extension of
time to file the Amended Rule 3.850 Motion. (Resp.
Exh. G, pp. 517-520.)
July 21, 2014. McLain filed a motion to withdraw
as counsel, stating that upon preparing the amended
motion, he discovered that Petitioner alleged ineffective
assistance of counsel against Robert Sirianni,
managing partner of Brownstone P.A. Sirianni
represented Petitioner during sentencing and direct
appeal. McLain requested that the court grant
Petitioner an additional extension of time to file the
amended motion. The previous motion to extend time
had not yet been ruled upon. (Pet. Exh. P.)

App. 8
September 15, 2014. Petitioner, through new postconviction counsel, filed an amended Rule 3.850
motion. (Id. at Vol. IV.) After an evidentiary hearing,
the trial court denied all relief. (Id. at pp. 765-773.) The
Fifth District Court of Appeal affirmed, per curiam
without written opinion, on February 9, 2016 (Exh. J);
Saunders v. State, 215 So.3d 601 (Fla. 5th DCA 2016)
(table). Mandate issued March 28, 2016.
February 4, 2016. Petitioner, through counsel,
initiated this federal habeas action under 28 U.S.C.
§ 2254. (Doc. 1.) Respondents contend that the petition
is untimely. (Doc. 6.) Petitioner agrees the petition is
untimely, but contends he is entitled to equitable
tolling. (Docs. 1, 8.)
III. Timeliness: One-Year Limitation Period
The Antiterrorism and Effective Death Penalty Act
of 1996 (AEDPA) amended 28 U.S.C. § 2244 by adding
the following subsection:
(d)(1) A 1-year period of limitation shall apply to
an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a
State court. The limitation period shall run from
the latest of-(A) the date on which the judgment
became final by the conclusion of direct
review or the expiration of the time for
seeking such review;
(B) the date on which the impediment to
filing an application created by State
action in violation of the Constitution or

App. 9
laws of the United States is removed, if
the applicant was prevented from filing
by such State action;
(C) the date on which the constitutional
right asserted was initially recognized by
the Supreme Court, if the right has been
newly recognized by the Supreme Court
and made retroactively applicable to cases
on collateral review; or
(D) the date on which the factual
predicate of the claim or claims presented
could have been discovered through the
exercise of due diligence.
(2) The time during which a properly filed
application for State post-conviction or other
collateral review with respect to the pertinent
judgment or claim is pending shall not be
counted toward any period of limitation under
this subsection.
28 U.S.C. § 2244(d).
A careful review of the record shows that
Petitioner’s sentence became final on June 3,
2013, 90 days after his conviction was affirmed. See
Clay v. United States, 537 U.S. 522 (2003); Close v.
United States, 336 F.3d 1283, 1285 (11th Cir. 2003)
(“According to rules of the Supreme Court, a petition
for certiorari must be filed within 90 days of the
appellate court’s entry of judgment on the appeal or, if
a motion for rehearing is timely filed, within 90 days of

App. 10
the appellate court’s denial of that motion.” (citing
Supreme Court Rule 13.3)).2
The limitations period ran for 276 days until it was
tolled by Petitioner’s pro se Rule 3.850 motion. The
post-conviction court struck the motion as legally
insufficient but granted Petitioner 60 days to amend.
Shortly thereafter, he retained counsel. Counsel moved
for a 45-day extension of time on June 9, 2014, and
upon his withdrawal on July 21, 2014, requested an
unspecified amount of additional time for Petitioner to
file his Rule 3.850 motion. Petitioner retained new
post-conviction counsel, who filed the Amended Rule
3.850 Motion on September 15, 2014. While the trial
court never explicitly ruled upon the motions for
extension of time, it never dismissed the case and
proceeded as if the Amended Motion was properly filed.
(Pet. Exh. T.)
“Under Florida law, when a postconviction motion
is stricken with leave to amend, the amended motion
relates back to the date of the original filing. See
Bryant v. State, 901 So.2d 810, 818 (Fla. 2005); see also
Spera v. State, 971 So.2d 754, 761 (Fla. 2007) (holding
that when a petitioner’s initial Rule 3.850 motion for
postconviction relief is determined to be legally
insufficient for failure to meet the Rule’s requirements,
the trial court must allow the defendant at least one
opportunity to amend the motion).” Green v. Sec’y,

2

Supreme Court Rule 13.3 states, in pertinent part: “The time to
file a petition for a writ of certiorari runs from the date of entry of
the judgment or order sought to be reviewed, and not from the
issuance date of the mandate.”

App. 11
Dep’t of Corr., 877 F.3d 1244, 1248 (11th Cir. 2017).
Under Green, Petitioner’s Amended Rule 3.850 Motion
related back to his original March 6, 2014, filing, and
therefore the limitations period remained tolled
through March 28, 2016, when mandate issued to the
Fifth District Court of Appeal’s decision affirming the
denial. Petitioner’s federal habeas petition, filed
February 4, 2016, is therefore timely and the Court
will review the merits of his five claims.3
Petitioner’s substantive claims are:
Ground 1: Trial and sentencing counsel were
ineffective for failing to move to recuse the presiding
judge;
Ground 2: Trial counsel was ineffective for failing
to confront and cross-examine the victim with her
inconsistent statements;
Ground 3: Trial counsel was ineffective for failing
to investigate and prepare a defense;
Ground 4: Trial counsel was ineffective for failing
to advise Petitioner regarding admissibility of a 1999
accusation of sexual battery; and,
Ground 5: Petitioner was denied due process and
a fair trial where the presiding judge lacked

3

The petition refers to the grounds as IIA, IIB, IIC, IICD, and III.
(Doc. 1.) However, for ease of reference, the Court will describe the
claims in the order they are presented in the petition, which
corresponds to the titles of the claims in state court (i.e., Grounds
1-5.)

App. 12
impartiality and failed to disqualify himself as a matter
of law.
(Doc. 1.)
III. Governing Legal Principles
A. Standard of Review
The Antiterrorism and Effective Death Penalty Act
of 1996 (AEDPA) governs a state prisoner’s federal
habeas corpus petition. See Ledford v. Warden, Ga.
Diagnostic & Classification Prison, 818 F.3d 600, 642
(11th Cir. 2016), cert. denied, 137 S. Ct. 1432 (2017).
“‘The purpose of AEDPA is to ensure that federal
habeas relief functions as a guard against extreme
malfunctions in the state criminal justice systems, and
not as a means of error correction.’” Id. (quoting Greene
v. Fisher, 565 U.S. 34, 38 (2011)).
The first task of the federal habeas court is to
identify the last state court decision, if any, that
adjudicated the petitioner’s claims on the merits. See
Marshall v. Sec’y Fla. Dep’t of Corr., 828 F.3d 1277,
1285 (11th Cir. 2016). The state court need not issue an
opinion explaining its rationale in order for the state
court’s decision to qualify as an adjudication on the
merits. See Harrington v. Richter, 562 U.S. 86, 100
(2011). Where the state court’s adjudication on the
merits is unaccompanied by an explanation,
the federal court should “look through” the
unexplained decision to the last related statecourt decision that does provide a relevant
rationale. It should then presume that the
unexplained decision adopted the same

App. 13
reasoning. But the State may rebut the
presumption by showing that the unexplained
affirmance relied or most likely did rely on
different grounds than the lower state court’s
decision, such as alternative grounds for
affirmance that were briefed or argued to the
state supreme court or obvious in the record it
reviewed.
Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018).
When a state court has adjudicated a petitioner’s
claims on the merits, a federal court cannot grant
habeas relief unless the state court’s adjudication of the
claim was “contrary to, or involved an unreasonable
application of, clearly established Federal law, as
determined by the Supreme Court of the United
States,” or “was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding,” 28 U.S.C.
§ 2254(d)(1), (2). A state court’s factual findings are
“presumed to be correct” unless rebutted “by clear and
convincing evidence.” Id. § 2254(e)(1).
AEDPA “imposes a highly deferential standard
for evaluating state court rulings” and “demands
that state-court decisions be given the benefit of
the doubt.” Renico v. Lett, 559 U.S. 766, 773
(2010) (internal quotation marks omitted). “A
state court’s determination that a claim lacks
merit precludes federal habeas relief so long as
fairminded jurists could disagree on the
correctness of the state court’s decision.”
Harrington v. Richter, 562 U.S. 86, 101 (2011)
(internal quotation marks omitted). “It bears

App. 14
repeating that even a strong case for relief does
not mean the state court’s contrary conclusion
was unreasonable.” Id. [at 102] (citing Lockyer v.
Andrade, 538 U.S. 63, 75 (2003)). The Supreme
Court has repeatedly instructed lower federal
courts that an unreasonable application of law
requires more than mere error or even clear
error. See, e.g., Mitchell v. Esparza, 540 U.S. 12,
18 (2003); Lockyer, 538 U.S. at 75 (“The gloss of
clear error fails to give proper deference to state
courts by conflating error (even clear error) with
unreasonableness.”); Williams v. Taylor, 529
U.S. 362, 410 (2000) (“[A]n unreasonable
application of federal law is different from an
incorrect application of federal law.”).
Bishop v. Warden, GDCP, 726 F.3d 1243, 1253-54 (11th
Cir. 2013) (internal citations modified).
B. Exhaustion and Procedural Default
There are prerequisites to federal habeas review.
Before bringing a § 2254 habeas action in federal court,
a petitioner must exhaust all state court remedies that
are available for challenging his state conviction. See
28 U.S.C. § 2254(b)(1)(A). To exhaust state remedies,
the petitioner must “fairly present[]” every issue raised
in his federal petition to the state’s highest court,
either on direct appeal or on collateral review. Castille
v. Peoples, 489 U.S. 346, 351 (1989) (emphasis
omitted). Thus, to properly exhaust a claim, “state
prisoners must give the state courts one full
opportunity to resolve any constitutional issues by
invoking one complete round of the State’s established
appellate review process.” O’Sullivan v. Boerckel, 526

App. 15
U.S. 838, 845 (1999); see also Pope v. Rich, 358 F.3d
852, 854 (11th Cir. 2004) (noting “that Boerckel applies
to the state collateral review process as well as the
direct appeal process”).
C. Ineffective Assistance of Counsel
“The Sixth Amendment guarantees criminal
defendants the effective assistance of counsel. That
right is denied when a defense attorney’s performance
falls below an objective standard of reasonableness and
thereby prejudices the defense.” Yarborough v. Gentry,
540 U.S. 1, 5 (2003) (per curiam) (citing Wiggins v.
Smith, 539 U.S. 510, 521 (2003), and Strickland v.
Washington, 466 U.S. 668, 687 (1984)). To establish
ineffective assistance, a person must show that:
(1) counsel’s performance was outside the wide range
of reasonable, professional assistance; and (2) counsel’s
deficient performance prejudiced the challenger in that
there is a reasonable probability that the outcome of
the proceeding would have been different absent
counsel’s deficient performance. Strickland, 466 U.S. at
687.
Notably, there is no “iron-clad rule requiring a court
to tackle one prong of the Strickland test before the
other.” Ward v. Hall, 592 F.3d 1144, 1163 (11th Cir.
2010). Since both prongs of the two-part Strickland test
must be satisfied to show a Sixth Amendment
violation, “a court need not address the performance
prong if the petitioner cannot meet the prejudice prong,
and vice-versa.” Id. (citing Holladay v. Haley, 209 F.3d
1243, 1248 (11th Cir. 2000)). As stated in Strickland:
“If it is easier to dispose of an ineffectiveness claim on
the ground of lack of sufficient prejudice, which we

App. 16
expect will often be so, that course should be followed.”
466 U.S. at 697.
“The question is not whether a federal court
believes the state court’s determination under the
Strickland standard was incorrect but whether that
determination was unreasonable - a substantially
higher threshold.” Knowles v. Mirzayance, 556 U.S.
111, 123 (2009) (quotation marks omitted). “If there is
‘any reasonable argument that counsel satisfied
Strickland’s deferential standard,’ then a federal court
may not disturb a state-court decision denying the
claim.” Hittson v. GDCP Warden, 759 F.3d 1210, 1248
(11th Cir. 2014) (quoting Richter, 562 U.S. at 105). As
such, “[s]urmounting Strickland’s high bar is never an
easy task.” Padilla v. Kentucky, 559 U.S. 356, 371
(2010). “Reviewing courts apply a ‘strong presumption’
that counsel’s representation was ‘within the wide
range of reasonable professional assistance.’” Daniel v.
Comm’r, Ala. Dep’t of Corr., 822 F.3d 1248, 1262 (11th
Cir. 2016) (quoting Strickland, 466 U.S. at 689). “When
this presumption is combined with § 2254(d), the result
is double deference to the state court ruling on
counsel’s performance.” Id. (citing Richter, 562 U.S. at
105); see also Marshall, 828 F.3d at 1285 (“The
standards created by Strickland and § 2254(d) are both
highly deferential, and when the two apply in tandem,
review is doubly so.” (quotations and citation omitted)).

App. 17
IV. Analysis
A. Ground One/IIA: Petitioner alleges that trial
and sentencing counsel4 were ineffective for failing to
move to recuse the presiding judge, Mark Nacke. (Doc.
1, pp. 32-36.) Judge Nacke was previously an Assistant
Public Defender, and in 2005 represented Petitioner in
a criminal case. Petitioner ultimately discharged Nacke
as his attorney after several months and retained new
counsel. (Pet. Exhs. N, S.) No motion to recuse Judge
Nacke was filed in Petitioner’s present case until
shortly after he filed his Rule 3.850 motion on March
10, 2014. Judge Nacke recused himself from the case.
In rejecting this claim on post-conviction review, the
trial court (Judge Lawrence J. Semento) wrote:
Defendant argues trial counsel and sentencing
counsel were ineffective when they failed to file
a motion to recuse the presiding judge who had
previously represented the Defendant as a
Public Defender. Defendant alleges the
presiding judge, Mark A. Nacke, had
represented him in case no. 2005-CF-l754, and
Defendant had discharged him for professional
misconduct and incompetency. He maintains he
informed trial counsel, Ms. Wanda Green, of
these facts and counsel refused to file a motion
to disqualify Judge Nacke. After Defendant was

4

Petitioner was initially represented by Assistant Public Defender
Mark Jackson. On February 14, 2011, Assistant Public Defender
Wanda Green entered a notice of appearance on Petitioner’s
behalf. Petitioner retained Robert Sirianni of Brownstone, P.A. to
represent him during his sentencing and direct appeal.

App. 18
found guilty, he retained different counsel for
sentencing and post-trial motions. He contends
he informed new counsel, Mr. Robert Sirianni, of
trial counsel’s failure to file a motion to
disqualify Judge Nacke but new counsel ignored
his requests and never filed a motion to
disqualify Judge Nacke. Defendant asserts his
fear of Judge Nacke’s presiding over his case
was reasonable because Judge Nacke made an
evidentiary ruling in retaliation for his previous
termination and also made inappropriate facial
gestures and used offensive voice intonations
towards the Defendant.
This Court finds the Defendant has failed to
meet his burden of proving counsel was
ineffective. Defendant testified he informed Mr.
Jackson that Judge Nacke had represented him
as a public defender in the 2005 case and they
had a bad relationship. Mr. Jackson testified he
had no memory of the Defendant telling him
Judge Nacke had represented him in the 2005
case. He stated that he had reviewed his notes
in his file and he would have noted it in those
notes if it was an issue. If it had been an issue,
Mr. Jackson stated if it was something the
Defendant had asked him to explore, he would
have put it in his notes.
Ms. Green took over Defendant’s case for Mr.
Jackson. The Defendant testified he told Ms.
Green at least three times that Judge Nacke
knew the details of the 1990 case but could not
recall whether he told her he had fired Judge

App. 19
Nacke as his public defender. He stated he
asked her to file a motion to have Judge Nacke
removed once prior to the motion in limine being
denied and twice after the motion was filed. He
testified Ms. Green never told him why she
would not file the motion. Ms. Green testified
she did not remember the Defendant informing
her that Judge Nacke had represented him in
the 2005 case or asking her to file a motion to
recuse Judge Nacke. She testified there was no
correspondence from the Defendant asking her
to file a motion to recuse the judge and she did
not find any notes in her file concerning the
issue. She noted that if the Defendant has
requested her to take such an action she would
have made a note of it.
The Defendant testified that he requested that
the attorneys at Brownstone firm to file such a
motion and they refused telling him it was not a
big deal. Mr. Sirianni of the Brownstone firm
testified that Defendant never informed him
that Judge Nacke had represented him in the
2005 case, he had fired Judge Nacke or that he
wanted him to file a motion to recuse Judge
Nacke. He stated, however, he did not personally
represent the Defendant on all the motions filed
by the firm on Defendant’s behalf. He testified
he was certain, however, that if Defendant had
told the other attorney’s working on Defendant’s
case, they would have informed him.
This Court notes this is a classic “he said - they
said” case. For this reason alone this Court finds

App. 20
Defendant did not meet his burden. What is also
persuasive to this Court is the fact there is no
evidence in writing until very late in the
proceedings that Defendant saw this as an issue.
Defendant’s testimony indicates this was an
issue that was a matter of great concern for him
but there is a dearth of any evidence in writing
of this concern. Thus, this Court finds failed to
establish counsel was ineffective and, therefore,
issue one is DENIED.
(Pet. Exh. T, pp. 4-5) (internal reference omitted).
Questions of the credibility and demeanor of a
witness are questions of fact. Freund v. Butterworth,
165 F.3d 839, 862 (11th Cir. 1999). Determining the
credibility of a witness “is the province and function of
the state courts, not a federal court engaging in habeas
review.” Consalvo v. Sec’y, Dep’t of Corr., 664 F.3d 842,
845 (11th Cir. 2011); see also 28 U.S.C. § 2254(e)(1)
(“[A] determination of a factual issue made by a State
court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of
correctness by clear and convincing evidence.”) As such,
federal habeas courts have “no license to redetermine
credibility of witnesses whose demeanor has been
observed by the state trial court, but not by them.”
Marshall v. Lonberger, 459 U.S. 422, 434 (1983).
At the state court evidentiary hearing on this claim,
Petitioner’s testimony that he told attorneys Jackson,
Green, and Sirianni of Judge Nacke’s prior
representation and requested a motion for recusal be
filed was in direct conflict with the testimony of
attorneys Jackson, Green and Sirianni. The state court

App. 21
found the attorneys’ testimony more credible than
Petitioner’s. Petitioner presents no clear and
convincing evidence to rebut the presumption of
correctness given the state court’s factual conclusions
or credibility determinations.
Petitioner has failed to demonstrate the state
courts’ denial of this claim was an unreasonable
application of Strickland or based on an unreasonable
determination of the facts. Accordingly, Ground One is
denied.
B. Ground Two/IIB: Petitioner contends that trial
counsel failed to confront and cross-examine the victim
regarding inconsistencies in her testimony. (Doc. 1, pp.
36-43.) Specifically, Petitioner alleges inconsistent
statements regarding the nature and setting of the
sexual battery. (Id.)
In rejecting this clam on post-conviction review, the
trial court wrote:
Defendant argues that trial counsel failed to
confront and cross-examine the victim regarding
inconsistencies in her testimony. In a case such
as this which involves allegations of sexual
battery, the victim’s credibility is paramount
and, therefore, failure to vigorously crossexamine the victim is evidence of ineffective
assistance of counsel. Defendant contends trial
counsel failed to aggressively cross-examine the
victim about numerous inconsistencies in her
statements to authorities, her deposition and
her trial testimony.

App. 22
In particular, Defendant asserts the victim made
inconsistent statements regarding the nature of
the sexual battery. Defendant states the victim’s
testimony changed on the amount of times he
penetrated her. Also, Defendant contends the
victim’s version of events changed regarding the
allegations of digital penetration from the
interview to the deposition and trial. Defendant
also asserts the victim’s testimony changed
regarding his position when she awoke.
Defendant contends the victim made
inconsistent statement [sic] regarding her
actions after the sexual battery took place.
Ms. Green testified that prior to the trial court’s
decision on the motion in limine, Defendant’s
defense was that the victim consented to his
having sex with her. After the ruling, Ms Green
discussed with the Defendant his options and
how the ruling affected his defense of consent.
The Defendant and Ms. Green agreed that they
did not want the jury to hear the testimony of
the victim in the 1999 case and abandoned the
defense of consent. The new defense became lack
of evidence of penetration/mistake.
Ms. Green acknowledged that the testimony of
the victim in this case was all over the place.
She stated she confronted the victim with the
theory she was mistaken about remembering
what happened. Ms. Green testified that for the
defense of mistake/lack of evidence, the victim’s
inconsistencies were not material
inconsistencies. In particular, Ms. Green did not

App. 23
want the victim to repeatedly state that there
was penetration.
This Court finds Ms. Green’s testimony to be
credible. Ms. Green and the Defendant discussed
the options available after the trial court ruled
on the motion in limine. They decided to
abandon the defense of consent and proceed with
a defense of lack of evidence of
penetration/mistake. The Florida Supreme
Court has made clear that “[s]trategic decisions
do not constitute ineffective assistance of
counsel if alternative courses have been
considered and rejected and counsel’s decision
was reasonable . . . . ” Occhicone v. State, 768 So.
2d 1037, 1048 (Fla. 2000) (citations omitted).
This Court finds Ms. Green’s strategic decisions
were reasonable and, therefore, issue two is
DENIED.
(Pet. Exh. T, pp. 6-7.)
The state court determined that trial counsel’s
strategic decisions in her questioning of the victim were
reasonable. For Petitioner to establish that trial
counsel was constitutionally ineffective, he must show
that “no competent counsel would have taken the
action that his counsel did take.” Chandler v. United
States, 218 F.3d 1305, 1315 (11th Cir. 2000) (en banc).
Here, trial counsel did not feel that the inconsistencies
were material, and did not want the victim to
repeatedly state that there was penetration. This Court
cannot conclude that no competent counsel would have
taken the action that Ms. Green did.

App. 24
Furthermore, “[u]nder the doubly deferential
judicial review that applies to a Strickland claim
evaluated under the 28 U.S.C. § 2254(d)(1) standard”
Petitioner’s ineffective assistance of trial counsel claim
must fail. Knowles v. Mirzayance, 556 U.S. 111, 123-24
(2009). Petitioner has failed to demonstrate the state
courts’ denial of this claim was an unreasonable
application of Strickland or based on an unreasonable
determination of the facts. Accordingly, Ground Two is
denied.
C. Ground Three/Point IIC: Petitioner contends
trial counsel failed to investigate or prepare a defense.
(Doc. 1, pp. 44-51.)
In rejecting this claim on post-conviction review, the
state court wrote:
Defendant argues trial counsel failed to
investigate or prepare a defense. He maintains
that from the beginning, he insisted the sexual
encounter was consensual. He contends defense
counsel chose not to cross-examine the victim or
allow Defendant to testify regarding this issue
based on the Judge’s order on Defendant’s
motion in limine to prohibit evidence of other
crime, wrongs or acts. He maintains counsel did
not put forth any evidence at all except to
contend no penetration took place because the
victim was dreaming. Defendant contends
counsel should have cross-examined the victim
who had several motives to lie.
This Court finds the Defendant has not met his
burden of proving counsel was ineffective.

App. 25
Wanda Green, Esq., trial counsel, testified at the
evidentiary hearing. She testified the State
wanted to call the victim of the 1999 crime and
she had deposed the victim. The facts of that
crime were very similar to the facts of this case.
Ms. Greene noted the victim seemed like a
credible witness and that if she testified at the
Defendant’s trial, the testimony could turn the
trial against the Defendant. Ms. Greene filed a
motion in limine to prevent the State from
introducing the evidence from the 1999 case.
The trial court ruled that the State was
prohibited from presenting evidence of the 1999
case unless the Defendant raised the defense of
consent.
Ms. Green stated she discussed the ruling with
the Defendant. Prior to the trial court’s ruling on
the motion in limine, their defense was consent.
After the ruling, she testified they discussed
their options. Ms. Green testified the Defendant
told her he did not want the jury to hear from
the 1999 victim. Both she and the Defendant
wanted to ensure that testimony was not heard
by the jury. They decided the defense would be
to argue the State could not prove penetration.
The defense would be there was a lack of
evidence to prove penetration. The testimony
would reveal the victim had been drinking
alcohol prior to the incident.
She stated she discussed with the Defendant
whether the Defendant should testify. Because
the defense was the victim was mistaken and

App. 26
the State could not prove penetration, the
Defendant’s testimony was not crucial to the
defense. Moreover, she was concerned that if he
testified, he could open the door to the 1999
incident.
This Court finds Ms. Green’s testimony to be
credible. In reaching this conclusion, this Court
is mindful that there is a strong presumption
that trial counsel’s performance was not
ineffective. Strickland, 466 U.S. at 689 (“a court
must indulge a strong presumption that
counsel’s conduct falls within the wide range of
reasonable professional assistance . . . . ”). As
stated above, the Florida Supreme Court has
made c!ear that “[s]trategic decisions do not
constitute ineffective assistance of counsel if
alternative courses have been considered and
rejected and counsel’s decision was reasonable
. . . . ” Occhicone v. State, 768 So. 2d 1037, l048
(Fla. 2000) (citations omitted). Trial counsel
prepared a reasonable defense of mistake and
lack of evidence to prove penetration. Defendant
agreed the 1999 victim’s testimony should not be
allowed into evidence during his trial. Therefore,
issue three is DENIED.
(Pet. Exh. T, pp. 7-9.)
Here, Petitioner’s planned defense of consent was
hindered by the trial court’s ruling that if Petitioner
alleged he believed the victim in 2010 was consenting,
evidence of his 1999 conviction in similar
circumstances could be introduced. (Resp. Exh. A, pp.
103-105.) Trial counsel testified at the evidentiary

App. 27
hearing, and the state court found credible, that she
and Petitioner discussed a new strategy, which would
be that there was a lack of evidence to prove
penetration.
This Court cannot conclude that no competent
counsel would have taken the action that Ms. Green
did. While perhaps counsel could have done more, that
is not the test. Furthermore, “[u]nder the doubly
deferential judicial review that applies to a Strickland
claim evaluated under the 28 U.S.C. § 2254(d)(1)
standard” Petitioner’s ineffective assistance of trial
counsel claim must fail. Knowles v. Mirzayance, 556
U.S. 111, 123-24 (2009).
Petitioner has failed to demonstrate the state
courts’ denial of this claim was an unreasonable
application of Strickland or based on an unreasonable
determination of the facts. Accordingly, Ground Three
is denied.
D. Ground Four/Point IID: Petitioner argues that
trial counsel was ineffective for failing to advise
Petitioner regarding the admissibility of a 1999
accusation of sexual battery against him. (Doc. 1, pp.
49-51.) In rejecting this claim on post-conviction
review, the trial court wrote:
Defendant maintains trial counsel advised him
that Judge Nacke’s order denying his motion in
limine would allow his 1999 case to be
introduced into evidence. He understood that to
mean that if he took the stand, he would have
opened the door for the 1999 accusation to be

App. 28
used at trial. As a result of the misadvice,
Defendant chose not to testify.
As stated above, Ms. Green testified she
discussed with the Defendant the judge’s ruling
and its effects on their defense of consent. She
testified she also discussed his options. She
informed the Defendant that if they adopted the
defense of consent, the trial court would allow
the jury to hear the victim of the 1999 crime.
Both counsel and the Defendant did not want
the jury to hear her testify. This Court concludes
that counsel did not misadvise the Defendant
and, therefore, issue four is DENIED.
(Pet. Exh. T, p. 9.) As discussed above, in Ground 4, the
trial court’s order denying the motion in limine made it
clear that if Petitioner sought to assert a defense of
consent, evidence of his prior conviction could be
introduced. Trial counsel, with Petitioner in agreement,
did not want that evidence presented to the jury and
therefore pursued a different defense and decided that
Petitioner should not testify on his own behalf.
This Court cannot conclude that no competent
counsel would have taken the action that Ms. Green
did. It was a reasonable trial strategy in light of the
order on the motion in limine and the danger that even
if Petitioner intended to limit his testimony to
particular topics, he might inadvertently bring up
consent.
Petitioner has failed to demonstrate the state
courts’ denial of this claim was an unreasonable
application of Strickland or based on an unreasonable

App. 29
determination of the facts. Accordingly, Ground Four is
denied.
E. Ground Five/Point III: Finally, Petitioner
claims he was denied due process and a fair trial where
Judge Nacke judge lacked impartiality and failed to
disqualify himself as a matter of law. (Doc. 1, pp. 5255.)
In rejecting this claim on post-conviction review, the
trial court wrote:
Defendant contends he was denied due process
and a fair trial because Judge Nacke lacked
impartiality and failed to disqualify himself as a
matter of law. He asserts trial counsel,
sentencing counsel and Judge Nacke had actual
knowledge of the judge’s bias. Defendant also
faults Judge Nacke for not disclosing on the
record that he had previously represented
Defendant in case no. 2005-CF-l754.
This Court finds this argument is without merit.
Significantly, the testimony of Defendant’s prior
attorneys support the conclusion Judge Nacke
was an impartial judge. Ms. Green, Mr. Jackson
and Mr. Sirianni testified they believed Judge
Nacke to be an impartial judge. Mr. Sirianni
stated he had argued motions before Judge
Nacke and the judge never showed any bias or
prejudice. Ms. Green also testified she did not
observe any evidence of bias or prejudice. Judge
Nacke testified at the hearing and stated he did
not remember representing the Defendant in
2005 or the case. He stated that all his rulings in

App. 30
the 2010 case were based on the evidence before
him and the law. This Court finds issue five
must be DENIED.
(Pet. Exh. T, p. 9.)
“A fair trial in a fair tribunal is a basic requirement
of due process.” In re Murchison, 349 U.S. 133, 136
(1955). However, the Supreme Court has recognized
that “most matters relating to judicial disqualification
[do] not rise to a constitutional level.” FTC v. Clement
Institute, 333 U.S. 683, 702 (1948). In addition to
matters where a judge as “a direct, personal,
substantial, pecuniary interest” in a case, a judge is
also required to recuse himself when “the probability of
actual bias on the part of the judge or decisionmaker is
too high to be constitutionally tolerable.” Withrow v.
Larkin, 421 U.S. 35, 47 (1975).
Here, Petitioner alleges that Judge Nacke was
biased because he had represented Petitioner for
approximately eight months in a previous criminal
case. They met approximately 3-4 times over that
period. Petitioner discharged Judge Nacke for what he
alleges was unprofessional conduct. (Pet. Exhs. B, C.)
During the post-conviction evidentiary hearing, the
state court found the testimony of (1) attorneys
Jackson, Green, and Sirianni that they believed Judge
Nacke to be an impartial judge; (2) attorney Green that
she observed no evidence of Judge Nacke showing bias
or prejudice; and (3) Judge Nacke that he did not recall
ever representing Petitioner and that his rulings were
based solely on the law and evidence, more credible
than Petitioner’s. In addition, there is no written
evidence that Petitioner ever raised the issue until

App. 31
years after his conviction, much less any evidence of
actual bias.
Petitioner has failed to show any actual or
appearance of impartiality so as to demonstrate a
violation of the Constitution, or that the state court’s
decision was contrary to, or an unreasonable
application of, clearly established federal law as
determined by the Supreme Court. Ground Five is
without merit. See also Hendrix v. Sec’y, Fla. Dept. of
Corr., 527 F.3d 1149, 1153 (11th Cir. 2008) (rejecting
habeas petitioner’s due process claim where trial judge
refused to recuse himself when he had briefly advised
counsel for a co-defendant prior to becoming a judge);
Davis v. Jones, 506 F.3d 1325, 1326 (11th Cir. 2007)
(rejecting habeas petitioner’s due process claim where
juvenile court judge presiding over one of his hearings
was the brother of one of the prosecutors).
ORDERED:
1. The petition (Doc. 1) is DENIED with
prejudice.
2. The Clerk shall enter judgment dismissing the
case with prejudice and close the file.
3. If Petitioner appeals, the Court denies a
certificate of appealability.5 The Clerk shall terminate

5

This Court should issue a certificate of appealability only if
Petitioner makes “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). To make this
substantial showing, Petitioner “must demonstrate that
reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong,” Tennard v. Dretke, 542

App. 32
any motion to proceed on appeal as a pauper that may
be filed in this case. Such termination shall serve as a
denial of the motion.
IT IS SO ORDERED.
DONE and ORDERED at Jacksonville, Florida,
this 6th day of March, 2019.
/s/Timothy J. Corrigan
TIMOTHY J. CORRIGAN
United States District Judge
OCAP-2
c:
Counsel of Record

U.S. 274, 282 (2004) (quoting Slack v. McDaniel, 529 U.S. 473, 484
(2000)), “or that the issues presented were ‘adequate to deserve
encouragement to proceed further,’” Miller-El v. Cockrell, 537 U.S.
322, 336 (2003) (quoting Slack, 529 U.S. at 484). “Where a district
court has rejected the constitutional claims on the merits, . . . [t]he
petitioner must demonstrate that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable
or wrong.” Slack, 529 U.S. at 484. However, “[w]hen the district
court denies a habeas petition on procedural grounds . . . a
[certificate of appealability] should issue when the prisoner shows,
at least, that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right
and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Id.

App. 33

APPENDIX D
IN THE DISTRICT COURT OF APPEAL OF
THE STATE OF FLORIDA
FIFTH DISTRICT
CASE NO. 5D15-1744
[Filed March 8, 2016]
_______________________
CHESLEY EUGENE
)
SAUNDERS,
)
)
Appellant,
)
)
v.
)
)
STATE OF FLORIDA,
)
)
Appellee.
)
_______________________ )
BY ORDER OF THE COURT:
ORDERED that Appellant’s Motion for Issuance of
Written Opinion and Certification of Conflict, filed
February 19, 2016, is denied.
I hereby certify that the foregoing is
(a true copy of) the original Court order.
/s/Joanne P. Simmons
JOANNE P. SIMMONS, CLERK

[SEAL]

App. 34
Authorized by: Judges Orfinger, Evander, and Cohen
cc:
Office of Attorney General
Jennifer M. Manyen
Douglas T. Squire
Patrick Michael Megaro

App. 35

APPENDIX E
IN THE CIRCUIT COURT OF THE
FIFTH JUDICIAL CIRCUIT
IN AND FOR LAKE COUNTY, FLORIDA
CASE NO.: 2010-CF-982 (04)
[Filed April 21, 2015]
__________________________
STATE OF FLORIDA
)
)
v.
)
)
CHESLEY E. SAUNDERS, )
)
Defendant.
)
__________________________ )
ORDER
THIS CAUSE came to be reviewed upon the
Defendant’s Amended Motion for Post-Conviction
Relief filed pursuant to rule 3.850, Florida Rules of
Criminal Procedure. Previously, this Court struck
Defendant’s Motion pursuant to Spera v. State, 971 So.
2d 754 (Fla. 2007). This Court held an evidentiary
hearing on March 25, 2015 and the Defendant was
present and represented by counsel. The Court has
reviewed the Motion, the testimony and argument for
the evidentiary hearing, the case file, relevant
statutory and case authority and has been otherwise
fully advised in the premises.

App. 36
Facts:
In 1999, the Defendant was arrested and charged
with sexual battery in Leon County. Pursuant to a plea
agreement, the court sentenced him to a withhold of
adjudication and two years of probation. As a part of
the plea agreement, the Defendant was required to
register as a sex offender.
In case no. 2005-CF-l754, the Defendant was
arrested and charged with failure to comply with sex
offender reporting requirements. The Hon. Mark A.
Nacke, then a public defender, represented the
Defendant for about eight months until Defendant
retained private counsel.
Police arrested the Defendant on April 18, 2010 and
charged him by amended information with sexual
battery upon a physically helpless person. The case was
assigned to the Hon. Mark A. Nacke. Mark Jackson,
Esq. was the Public Defender originally assigned to the
case. The State filed an amended notice of intent to
offer evidence of other crimes, wrongs or acts. On
February 14, 2011, Wanda Green, Esq., an Assistant
Public Defender, filed an amended notice of appearance
as counsel of record.
The Defendant filed a motion in limine to prohibit
evidence of other crimes, wrongs or acts which the trial
court granted in part and denied in part. Defense
counsel sought to have the State barred from
introducing evidence about a 1999 incident. The court
ruled that the State could introduce facts of the
Defendant’s 1999 sexual battery offense only to rebut
an allegation by the Defendant that he believed the

App. 37
victim in this case consented to having sexual activity
with him. A jury found the Defendant guilty and the
court sentenced the Defendant to 25-years’
imprisonment.
Defendant retained Brownstone, P.A. for his
sentencing and direct appeal. Robert Sirianni, Esq., an
attorney with Brownstone, represented the Defendant
for sentencing.1 Mr. Sirianni filed a motion for a new
trial which the Court denied. Defendant filed an appeal
and the Fifth District Court of Appeal per curiam
affirmed.
Defendant filed a 3.850 motion on or about March
10, 2014. This Court struck the motion for being legally
insufficient. Shortly thereafter, Defendant filed a
motion to disqualify the Honorable Mark A. Nacke. He
alleged Judge Nacke had previously represented him in
a 2005 case and that he had fired Judge Nacke. The
Honorable Mark A. Nacke entered an order and
recused himself from this case. Defendant filed this
Amended Motion for Post-Conviction Relief in
September 2014.
Issues:
1. Whether defense counsel and sentencing
counsel were ineffective for failing to file a
motion to recuse the Honorable Mark A.
Nacke due to conflict and appearance of
impropriety.

1

Counsel has since withdrawn from representing the Defendant.

App. 38
2. Whether trial counsel failed to confront and
cross-examine the victim with numerous,
material and repeated inconsistencies.
3. Whether trial counsel failed to investigate
and prepare a defense.
4. Whether trial counsel failed to properly
advise Defendant regarding the admissibility
of the 1999 accusation.
5. Whether the Defendant was denied due
process of law and a fair trial where the
presiding judge failed to disqualify himself as
a matter of law.
Ineffective Assistance of Counsel:
To establish ineffective assistance of counsel,
Defendant must establish the following. First, counsel’s
performance must be shown to be deficient. Strickland
y. Washington, 466 U.S. 668, 687 (1984). Deficient
performance means that counsel’s performance fell
below the standard guaranteed by the Sixth
Amendment. Id. When examining counsel’s
performance, an objective standard of reasonableness
applies, and great deference is given to counsel’s
performance. Id. at 689. (“Judicial scrutiny of counsel’s
performance must be highly deferential.”) (emphasis
added).
Significantly, the defendant bears the burden to
“overcome the presumption that, under the
circumstances, the challenged action ‘might be
considered sound trial strategy.”’ Id. (quoting Michel v.
Louisiana, 350 U.S. 91, 101 ( 1955) ). There is a strong

App. 39
presumption that trial counsel’s performance was not
ineffective. Strickland, 466 U.S. at 689 (“a court must
indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional
assistance .... ”) (emphasis added). Agreeing, the
Florida Supreme Court has made clear that “[s]trategic
decisions do not constitute ineffective assistance of
counsel if alternative courses have been considered and
rejected and counsel’s decision was reasonable . . . .”
Occhicone v. State, 768 So. 2d 1037, 1048 (Fla. 2000)
(citations omitted).
Second, the defendant must demonstrate that the
deficient performance prejudiced him, ultimately
depriving him of a fair trial with a reliable result.
Strickland, 466 U.S. at 687. A defendant must do more
than speculate that an error affected the outcome. Id.
at 693. A defendant is prejudiced if there is a
reasonable probability that “but for counsel’s
unprofessional errors, the result of the proceeding
would have been different. A reasonable probability is
a probability sufficient to undermine confidence in the
outcome.” Id. at 694. Both deficient performance and
prejudice must be shown. Id. at 687. In 2011, the
Supreme Court of the United States clarified the
Strickland prejudice standard in Harrington v. Richter,
— U.S. —, 131 S.Ct. 770 (2011):
In assessing prejudice under Strickland,
the question is not whether a court can be
certain counsel’s performance had no
effect on the outcome or whether it is
possible a reasonable doubt might have
been established if counsel acted

App. 40
differently. See Wong v. Belmontes, 558
U.S. 15, —, 130 S.Ct. 383, 390 (2009) (per
curiam) (slip op., at 13); Strickland, 466
U.S., at 693. Instead, Strickland asks
whether it is “reasonably likely” the
result would have been different. Id. at
696. This does not require a showing that
counsel’s actions “more likely than not
altered the outcome,” but the difference
between Strickland’s prejudice standard
and a more-probable-than-not standard is
slight and matters “only in the rarest
case.” Id. at 693, 697. The likelihood of a
different result must be substantial, not
just conceivable. Id., at 693.
Harrington, 131 S.Ct. at 791-92 (emphasis added). In
Capaldo v. State, 73 So. 3d 838 (Fla. 4th DCA 2011), the
court stated:
[a] “probability” is not a mere possibility,
and requires something more than a bald
allegation. To be sufficient, the claim
must be objectively reasonable. The
circumstances must be sufficient to
undermine confidence in the outcome of
the proceeding, and the ultimate focus,
when considering prejudice, must be on
the fundamental fairness of the
proceeding whose result is being
challenged.
Id. at 841.

App. 41
Issue one:
Defendant argues trial counsel and sentencing
counsel were ineffective when they failed to file a
motion to recuse the presiding judge who had
previously represented the Defendant as a Public
Defender. Defendant alleges the presiding judge, Mark
A. Nacke, had represented him in case no. 2005-CF1754, and Defendant had discharged him for
professional misconduct and incompetency. He
maintains he informed trial counsel, Ms. Wanda Green,
of these facts and counsel refused to file a motion to
disqualify Judge Nacke. After Defendant was found
guilty, he retained different counsel for sentencing and
post-trial motions. He contends he informed new
counsel, Mr. Robert Sirianni, of trial counsel’s failure
to file a motion to disqualify Judge Nacke but new
counsel ignored his requests and never filed a motion
to disqualify Judge Nacke. Defendant asserts his fear
of Judge Nacke’s presiding over his case was
reasonable because Judge Nacke made an evidentiary
ruling in retaliation for his previous termination and
also made inappropriate facial gestures and used
offensive voice intonations towards the Defendant.
This Court finds the Defendant has failed to meet
his burden of proving counsel was ineffective.
Defendant testified he informed Mr. Jackson that
Judge Nacke had represented him as a public defender
in the 2005 case and they had a bad relationship. Mr.
Jackson testified he had no memory of the Defendant
telling him Judge Nacke had represented him in the
2005 case. He stated that he had reviewed his notes in
his file and he would have noted it in those notes if it

App. 42
was an issue. If it had been an issue, Mr. Jackson
stated if it was something the Defendant had asked
him to explore, he would have put it in his notes.
Ms. Green took over Defendant’s case for Mr.
Jackson. The Defendant testified he told Ms. Green at
least three times that Judge Nacke knew the details of
the 1990 case but could not recall whether he told her
he had fired Judge Nacke as his public defender. He
stated he asked her to file a motion to have Judge
Nacke removed once prior to the motion in limine being
denied and twice after the motion was filed. He
testified Ms. Green never told him why she would not
file the motion. Ms. Green testified she did not
remember the Defendant informing her that Judge
Nacke had represented him in the 2005 case or asking
her to file a motion to recuse Judge Nacke. She
testified there was no correspondence from the
Defendant asking her to file a motion to recuse the
judge and she did not find any notes in her file
concerning the issue. She noted that if the Defendant
has requested her to take such an action she would
have made a note of it.
The Defendant testified that he requested that the
attorneys at Brownstone firm to file such a motion and
they refused telling him it was not a big deal.2 Mr.
Sirianni of the Brownstone firm testified that
2

Defendant’s testimony that he requested the Brownstone firm to
file a motion to recuse Judge Nacke is supported by the testimony
of his aunt, Lorelei Hickman, who testified she made the firm
aware of Defendant’s concern. This Court notes that Mr. Sirianni’s
testimony contradicts her testimony and this Court finds his
testimony credible.

App. 43
Defendant never informed him that Judge Nacke had
represented him in the 2005 case, he had fired Judge
Nacke or that he wanted him to file a motion to recuse
Judge Nacke. He stated, however, he did not personally
represent the Defendant on all the motions filed by the
firm on Defendant’s behalf. He testified he was certain,
however, that if Defendant had told the other
attorney’s working on Defendant’s case, they would
have informed him.
This Court notes this is a classic “he said - they
said” case. For this reason alone this Court finds
Defendant did not meet his burden. What is also
persuasive to this Court is the fact there is no evidence
in writing until very late in the proceedings that
Defendant saw this as an issue. Defendant’s testimony
indicates this was an issue that was a matter of great
concern for him but there is a dearth of any evidence in
writing of this concern. Thus, this Court finds failed to
establish counsel was ineffective and, therefore, issue
one is DENIED.
Issue two:
Defendant argues that trial counsel failed to
confront and cross-examine the victim regarding
inconsistencies in her testimony. In a case such as this
which involves allegations of sexual battery, the
victim’s credibility is paramount and, therefore, failure
to vigorously cross-examine the victim is evidence of
ineffective assistance of counsel. Defendant contends
trial counsel failed to aggressively cross-examine the
victim about numerous inconsistencies in her
statements to authorities, her deposition and her trial
testimony.

App. 44
In particular, Defendant asserts the victim made
inconsistent statements regarding the nature of the
sexual battery. Defendant states the victim’s testimony
changed on the amount of times he penetrated her.
Also, Defendant contends the victim’s version of events
changed regarding the allegations of digital penetration
from the interview to the deposition and trial.
Defendant also asserts the victim’s testimony changed
regarding his position when she awoke. Defendant
contends the victim made inconsistent statement
regarding her actions after the sexual battery took
place.
Ms. Green testified that prior to the trial court’s
decision on the motion in limine, Defendant’s defense
was that the victim consented to his having sex with
her. After the ruling, Ms Green discussed with the
Defendant his options and how the ruling affected his
defense of consent. The Defendant and Ms. Green
agreed that they did not want the jury to hear the
testimony of the victim in the 1999 case and abandoned
the defense of consent. The new defense became lack of
evidence of penetration/mistake.
Ms. Green acknowledged that the testimony of the
victim in this case was all over the place. She stated
she confronted the victim with the theory she was
mistaken about remembering what happened. Ms.
Green testified that for the defense of mistake/lack of
evidence, the victim’s inconsistencies were not material
inconsistencies. In particular, Ms. Green did not want
the victim to repeatedly state that there was
penetration.

App. 45
This Court finds Ms. Green’s testimony to be
credible. Ms. Green and the Defendant discussed the
options available after the trial court ruled on the
motion in limine. They decided to abandon the defense
of consent and proceed with a defense of lack of
evidence of penetration/mistake. The Florida Supreme
Court has made clear that “[s]trategic decisions do not
constitute ineffective assistance of counsel if
alternative courses have been considered and rejected
and counsel’s decision was reasonable . . . . ” Occhicone
v. State, 768 So. 2d 1037, 1048 (Fla. 2000) (citations
omitted). This Court finds Ms. Green’s strategic
decisions were reasonable and, therefore, issue two is
DENIED.
Issue three:
Defendant argues trial counsel failed to investigate
or prepare a defense. He maintains that from the
beginning, he insisted the sexual encounter was
consensual. He contends defense counsel chose not to
cross-examine the victim or allow Defendant to testify
regarding this issue based on the Judge’s order on
Defendant’s motion in limine to prohibit evidence of
other crime, wrongs or acts. He maintains counsel did
not put forth any evidence at all except to contend no
penetration took place because the victim was
dreaming. Defendant contends counsel should have
cross-examined the victim who had several motives to
lie.
This Court finds the Defendant has not met his
burden of proving counsel was ineffective. Wanda
Green, Esq., trial counsel, testified at the evidentiary
hearing. She testified the State wanted to call the

App. 46
victim of the 1999 crime and she had deposed the
victim. The facts of that crime were very similar to the
facts of this case. Ms. Greene noted the victim seemed
like a credible witness and that if she testified at the
Defendant’s trial, the testimony could turn the trial
against the Defendant. Ms. Greene filed a motion in
limine to prevent the State from introducing the
evidence from the 1999 case. The trial court ruled that
the State was prohibited from presenting evidence of
the 1999 case unless the Defendant raised the defense
of consent.
Ms. Green stated she discussed the ruling with the
Defendant. Prior to the trial court’s ruling on the
motion in limine, their defense was consent. After the
ruling, she testified they discussed their options. Ms.
Green testified the Defendant told her he did not want
the jury to hear from the 1999 victim. Both she and the
Defendant wanted to ensure that testimony was not
heard by the jury. They decided the defense would be
to argue the State could not prove penetration. The
defense would be there was a lack of evidence to prove
penetration. The testimony would reveal the victim had
been drinking alcohol prior to the incident.
She stated she discussed with the Defendant
whether the Defendant should testify. Because the
defense was the victim was mistaken and the State
could not prove penetration, the Defendant’s testimony
was not crucial to the defense. Moreover, she was
concerned that if he testified, he could open the door to
the 1999 incident.
This Court finds Ms. Green’s testimony to be
credible. In reaching this conclusion, this Court is

App. 47
mindful that there is a strong presumption that trial
counsel’s performance was not ineffective. Strickland,
466 U.S. at 689 (“a court must indulge a strong
presumption that counsel’s conduct falls within the
wide range of reasonable professional assistance .... ”).
As stated above, the Florida Supreme Court has made
clear that “[s]trategic decisions do not constitute
ineffective assistance of counsel if alternative courses
have been considered and rejected and counsel’s
decision was reasonable .... ” Occhicone v. State, 768
So. 2d 1037, 1048 (Fla. 2000) (citations omitted). Trial
counsel prepared a reasonable defense of mistake and
lack of evidence to prove penetration. Defendant agreed
the 1999 victim’s testimony should not be allowed into
evidence during his trial. Therefore, issue three is
DENIED.
Issue four:
Defendant maintains trial counsel advised him that
Judge Nacke’s order denying his motion in limine
would allow his 1999 case to be introduced into
evidence. He understood that to mean that if he took
the stand, he would have opened the door for the 1999
accusation to be used at trial. As a result of the
misadvice, Defendant chose not to testify.
As stated above, Ms. Green testified she discussed
with the Defendant the judge’s ruling and its effects on
their defense of consent. She testified she also
discussed his options. She informed the Defendant that
if they adopted the defense of consent, the trial court
would allow the jury to hear the victim of the 1999
crime. Both counsel and the Defendant did not want
the jury to hear her testify. This Court concludes that

App. 48
counsel did not misadvise the Defendant and,
therefore, issue four is DENIED.
Issue five:
Defendant contends he was denied due process and
a fair trial because Judge Nacke lacked impartiality
and failed to disqualify himself as a matter of law. He
asserts trial counsel, sentencing counsel and Judge
Nacke had actual knowledge of the judge’s bias.
Defendant also faults Judge Nacke for not disclosing on
the record that he had previously represented
Defendant in case no. 2005-CF-1754.
This Court finds this argument is without merit.
Significantly, the testimony of Defendant’s prior
attorneys support the conclusion Judge Nacke was an
impartial judge. Ms. Green, Mr. Jackson and Mr.
Sirianni testified they believed Judge Nacke to be an
impartial judge. Mr. Sirianni stated he had argued
motions before Judge Nacke and the judge never
showed any bias or prejudice. Ms. Green also testified
she did not observe any evidence of bias or prejudice.
Judge Nacke testified at the hearing and stated he did
not remember representing the Defendant in 2005 or
the case. He stated that all his rulings in the 2010 case
were based on the evidence before him and the law.
This Court finds issue five must be DENIED.
Based on the above, it is ORDERED and
ADJUDGED that Defendant’s Amended Motion for
Post-Conviction Relief is DENIED. Defendant has 30
days from the date of this Order to file an appeal.
DONE AND ORDERED in Chambers at Tavares,
Lake County, Florida this 21 day of April, 2015.

App. 49
/s/Lawrence J. Semento
Lawrence J. Semento, Circuit Judge
Copies to:
Chesley E. Saunders #N08042
Tomoka Correctional Institution
3950 Tiger Bay Road
Daytona Beach, FL 32124
Office of the State Attorney
Patrick Megaro, Esq.
Appeals Law Group
33 East Robinson
Suite 210
Orlando, FL 32801

App. 50

APPENDIX F
IN THE DISTRICT COURT OF APPEAL
OF THE STATE OF FLORIDA
FIFTH DISTRICT
JANUARY TERM 2013
NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED
Case No. 5D11-3658
[Filed March 5, 2013]
__________________________
CHESLEY E. SAUNDERS, )
)
Appellant,
)
)
v.
)
)
STATE OF FLORIDA,
)
)
Appellee.
)
__________________________ )
Appeal from the Circuit Court
for Lake County,
Mark A. Nacke, Judge.
Jesse A. Haskins and Michael M.
Brownlee, of Brownstone, P.A.,
Winter Park, for Appellant.

App. 51
Pamela Jo Bondi, Attorney General,
Tallahassee, and Ann M. Phillips,
Assistant Attorney General, Daytona
Beach, for Appellee.
PER CURIAM.
AFFIRMED.

PALMER, LAWSON and COHEN, JJ., concur.

App. 52

APPENDIX G
IN THE DISTRICT COURT OF APPEAL
OF THE STATE OF FLORIDA
FIFTH DISTRICT
NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED
Case No. 5D15-1744
[Filed February 9, 2016]
__________________________
CHESLEY EUGENE
)
SAUNDERS,
)
)
Appellant,
)
)
v.
)
)
STATE OF FLORIDA,
)
)
Appellee.
)
__________________________ )
3.850 Appeal from the Circuit
Court for Lake County,
Lawrence J. Semento, Judge.
Patrick Michael Megaro and Jennifer M.
Manyen, Orlando, for Appellant.

App. 53
Pamela Jo Bondi, Attorney General,
Tallahassee, and Douglas T. Squire,
Assistant Attorney General, Daytona
Beach, for Appellee.
PER CURIAM.
AFFIRMED.
ORFINGER, EVANDER and COHEN, JJ., concur.

App. 54

APPENDIX H
INSTRUMENT#: 2011088621 OR BK 4073 PG 2134
PAGES: 2 9/16/2011 11:17:08 AM
NEIL KELLY, LAKE COUNTY CLERK OF THE
CIRCUIT COURT
REC FEES: $0. 00
IN THE CIRCUIT COURT OF THE FIFTH
JUDICIAL CIRCUIT
IN AND FOR LAKE COUNTY, FLORIDA
FELONY DIVISION
CASE # 2010 CF 000982
[Filed September 13, 2011]
__________________________
THE STATE OF FLORIDA )
)
VS
)
)
CHESLEY E SAUNDERS )
DEFENDANT
)
__________________________ )
JUDGMENT
G PROBATION VIOLATOR
G PRETRIAL
G COMMUNITY CONTROL VIOLATOR
G RESENTENCE
THE DEFENDANT, CHESLEY E SAUNDERS BEING
PERSONALLY BEFORE THIS COURT

App. 55
REPRESENTED BY WANDA GREENE, APD,
ATTORNEY OF RECORD, AND THE STATE BEING
REPRESENTED BY SUSAN BETH CRUMPLER,
ASA, AND HAVING
: Been tried and found guilty
9 Entered a plea of nolo contendere
9 Entered a plea of guilty
9 Admitted Violation
9 Entered a plea of not guilty
as to the following crime(s):
COUNT CRIME OFFENSE DEGREE OBTS # CASE#
STATUTE
OF
#
CRIME
1

SEXUAL 794.011(4a) 1F
BATTERY
UPON
PHYSIC
ALLY
HELPLESS
PERSON

3501112 2010
731
CF
000982

: and no cause being shown why the defendant
should not be adjudicated guilty, IT IS ORDERED
THAT the defendant is hereby ADJUDICATED
GUILTY of the above crime(s);
9 and with good cause being shown, IT IS
ORDERED THAT ADJUDICATION OF GUILT
BE WITHHELD;

App. 56
: and having been convicted or found guilty of, or
having entered a plea of nolo contendere or guilty,
regardless of adjudication, pursuant to section
943.325, Florida Statutes, effective July 1, 2005,
any person who is convicted or was previously
convicted in this state of any felony offense shall be
required to submit two biological specimens to a
Florida Department of Law Enforcement designated
testing facility for inclusion in the DNA database,
the defendant shall submit to the collection of two
biological specimens (oral swabs) for DNA testing.
DONE AND ORDERED in open court in LAKE
County, Florida this date September 7, 2011.
/s/Mark A. Nacke
JUDGE: HONORABLE MARK A NACKE
CERTIFICATE OF SERVICE
I HEREBY CERTIFY THAT A COPY OF THE
FOREGOING JUDGMENT AND/OR SENTENCE HAS
BEEN FURNISHED TO WANDA GREENE,
COUNSEL FOR THE DEFENDANT, THIS 15 DAY OF
SEPTEMBER, 2011.
/s/
DEPUTY CLERK
LAKE COUNTY CLERK’S OFFICE

App. 57
FINGERPRINTS OF DEFENDANT

FINGERPRINTS TAKEN BY
M. Baker 470 DEPUTY SHERIFF
NAME AND TITLE
DONE AND ORDERED IN OPEN COURT AT
TAVARES, LAKE COUNTY, FLORIDA THIS 7th DAY
OF SEPT., 2011. I HEREBY CERTIFY THAT THE
ABOVE AND FOREGOING FINGERPRINTS ARE
THE FINGERPRINTS OF THE DEFENDANT
CHESLEY E SAUNDERS AND THAT THEY WERE
PLACED THEREON BY SAID DEFENDANT IN MY
PRESENCE IN OPEN COURT THIS DATE.
/s/
JUDGE
FILED IN OPEN COURT
9-7-11
NEIL KELLY
CLERK OF CIRCUIT COURT
BY /s/
DEPUTY CLERK

App. 58
IN THE CIRCUIT COURT OF THE FIFTH
JUDICIAL CIRCUIT, CRIMINAL DIVISION,
IN AND FOR LAKE COUNTY
CASE NO.: 2010 CF 982
[Filed September 26, 2011]
__________________________
STATE OF FLORIDA
)
)
VS.
)
)
DEFENDANT: CHESLEY )
E. SAUNDERS
)
__________________________ )
ADDRESS:_______________________________________
SOCIAL SECURITY NO.: _________________________
DATE OF BIRTH: ________________________________
DEFENDANT’S SIGNATURE ______________________
FELONY
The defendant shall report immediately to Room 105,
Lake County Judicial Center, to establish a payment
plan with the Clerk of Courts if unable to pay in full
when sentenced. If incarcerated, the defendant shall
report to Room 105 within 5 business days of release
from custody to establish a payment plan.
Failure to pay costs, fines, fees in full or as agreed will
result in your case being sent to collections with
additional fees applied. Your case may be referred to

App. 59
Florida Department of Highway Safety and Motor
Vehicles for suspension of your driver’s license.
FINAL JUDGMENT ASSESSING FEES,
SERVICE CHARGES, COSTS, AND FINES
The defendant is hereby ordered to pay and a judgment
is hereby entered on behalf of Lake County Clerk of the
Court, PO Box 7800, Tavares, Florida 32778 and the
State of Florida in the following sums (if indicated), for
which let execution issue.
MANDATORY
1.

$

50.00

2.
3.

$
$

5.00
50.00

4.

$

3.00

5.

$

50.00

6.

$ 225.00

7.

$

20.00

Indigent Criminal Defense
Trust Fund [§27.52] (Public
Defender’s Application Fee, if
not previously paid)
Recording Fee [§28.24]
County Crime Prevention Fund
[§775.083(2); Lake County Code
§9-17] ($50 for felony; $20 for
other offenses)
Additional Court Cost Clearing
Trust Fund [§938.01]
Crimes Compensation Trust
Fund [§938.03]
Local Government Criminal
Justice Trust Fund [§938.05]
Crime Stoppers Trust Fund
[§938.06]

App. 60
8.

$

2.00

9.

$ 550.00

10. $

65.00

11. $

3.00

12. $ ______
13. $ 30.00

14. $

3.00

15. $

65.00

16. $ ______

Additional Criminal Justice
Education by Municipalities
and Counties [§938.15; Lake
County Code, §9-11]
Public Defender/Appointed
Counsel Fees and Costs
[§938.29; F.R.Cr.P. 3.720(d)(1)]
Additional court costs for court
system, legal aid, law library,
juvenile programs[§939.185;
Lake County Code §6]
Teen Court Fund [§938.19;
Lake County Code §9-17]
Felony DUI [§316.193(2)(b)]
State Court Facilities Fund
[§318.19(13)(a); Lake County
Code §9-12] ($30 for violations
listed in §318.17)
State Agency Law Enforcement
Radio Systems Trust Fund
[§318.18(17)] ($3 for violations
listed in §318.17).
Additional Costs to Dept. of
Health [§318.18(20)] for
violation §316.191, 316.192
Criminal Wildlife Violation
[§372.7015] ($250 if wildlife
offense committed while
violating Ch. 810)

App. 61
17. $

12.50

18. $ ______

19. $ ______

20. $ 201.00

21. $ 151.00
22. $ ______

23. $ ______

24. $ ______

Crimes Compensation Trust
Fund [§938.04, 960.21] (5%
surcharge on all fines)
DUI/BUI Assessment [§938.07]
($135 for any violation of
§316.193 or §327.35)
Trafficking [§893.135]
(Mandatory fines $25,000 to
$500,000)
Additional Cost Domestic
Violence [§938.08] ($201 for
§784.011 asslt, 784.021
agg/asslt, 784.03 batt, 784.041
fel batt, 784.045 agg batt,
784.048 stalk, 784.07 asslt/batt
leo, 784.08 assl/batt 65, 784.081
asslt/batt spec off/emp, 784.082
asslt/batt jail, 784.083 asslt/batt
inspector, 784.085 batt child,
794.011 sex batt, 741.28 dv)
Additional Cost Rape Crisis
Centers [§938.085]
Additional Cost for Crimes
against Minors [§938.10] ($151
for §784.085, ch. 787, 794,
§796.03, 800.04, ch. 827,
§847.0145, 985.4045)
County Alcohol and Other Drug
Abuse Trust Fund [§938.13;
Lake County Code, §9-14] ($15,
misd. use of drugs or alcohol)
Investigative Costs [§938.27(7)]

App. 62
25. $ 100.00
26. $ ______

27. $ ______

Prosecution Costs [§938.27(8)]
(Not less than $100)
Incarceration Costs [§960.293]
($50/day or $250,000 if
capital/life felony, upon motion
to assess when # days served is
known, w/notice to defendant,
and hearing)
Prostitution/Solicitation
[§796.07(2)(f)] ($500 civil
penalty)

DISCRETIONARY
28. $ 250.00
Fines [§775.083] (Up to $15,000
for life felony; $10,000 for 1st or
2d degree felony; $5,000 for 3rd
degree felony; add $5
or $ ______ 9 W/H f o r § 3 1 6 . 0 6 1 , 3 1 6 . 1 9 2 ;
§775.0835 fine up to $10,000 for
injury or death CCTF)
29. $ ______
Alcohol and drug abuse
programs [§938.21] (Cost up to
fine amt: ch. 562, 567, 568, 893,
§316.193, 856.011, 856.015.)
30. $ ______
Assistance Grants for alcohol
and drug abuse programs
[§938.23] (Up to fine amt; same
crimes as line 22 above)
31. $ ______
Operating Trust Fund of the
FDLE [§938.25] ($100 for any
criminal violation of §893.13)

App. 63
32. $ ______

Other: ______________________

Total $ 1,73750
DONE AND ORDERED in open court in Lake County,
Florida, this 26 day of September, 2011.
/s/
CIRCUIT COURT JUDGE
Effective July 1, 2011

App. 64
INSTRUMENT#: 2011093373 OR BK 4078 PG 1046
PAGES: 1 9/30/2011 10:22:53 AM
NEIL KELLY, LAKE COUNTY CLERK OF THE
CIRCUIT COURT
REC FEES: $0.00
IN THE CIRCUIT COURT OF THE FIFTH
JUDICIAL CIRCUIT, CRIMINAL DIVISION,
IN AND FOR LAKE COUNTY
CASE NO.: 2010 CF 982
__________________________
STATE OF FLORIDA
)
)
VS.
)
)
DEFENDANT: CHESLEY )
E. SAUNDERS
)
__________________________ )
ADDRESS:_______________________________________
SOCIAL SECURITY NO.: _________________________
DATE OF BIRTH: ________________________________
DEFENDANT’S SIGNATURE ______________________
FELONY
The defendant shall report immediately to Room 105,
Lake County Judicial Center, to establish a payment
plan with the Clerk of Courts if unable to pay in full
when sentenced. If incarcerated, the defendant shall
report to Room 105 within 5 business days of release
from custody to establish a payment plan.

App. 65
Failure to pay costs, fines, fees in full or as agreed will
result in your case being sent to collections with
additional fees applied. Your case may be referred to
Florida Department of Highway Safety and Motor
Vehicles for suspension of your driver’s license.
FINAL JUDGMENT ASSESSING FEES,
SERVICE CHARGES, COSTS, AND FINES
The defendant is hereby ordered to pay and a judgment
is hereby entered on behalf of Lake County Clerk of the
Court, PO Box 7800, Tavares, Florida 32778 and the
State of Florida in the following sums (if indicated), for
which let execution issue.
MANDATORY
1.

$

50.00

2.
3.

$
$

5.00
50.00

4.

$

3.00

5.

$

50.00

6.

$ 225.00

7.

$

20.00

Indigent Criminal Defense
Trust Fund [§27.52] (Public
Defender’s Application Fee, if
not previously paid)
Recording Fee [§28.24]
County Crime Prevention Fund
[§775.083(2); Lake County Code
§9-17] ($50 for felony; $20 for
other offenses)
Additional Court Cost Clearing
Trust Fund [§938.01]
Crimes Compensation Trust
Fund [§938.03]
Local Government Criminal
Justice Trust Fund [§938.05]
Crime Stoppers Trust Fund
[§938.06]

App. 66
8.

$

2.00

9.

$ 550.00

10. $

65.00

11. $

3.00

12. $
13. $

______
30.00

14. $

3.00

15. $

65.00

16. $

______

Additional Criminal Justice
Education by Municipalities
and Counties [§938.15; Lake
County Code, §9-11]
Public Defender/Appointed
Counsel Fees and Costs
[§938.29; F.R.Cr.P. 3.720(d)(1)]
Additional court costs for court
system, legal aid, law library,
juvenile programs[§939.185;
Lake County Code §6]
Teen Court Fund [§938.19;
Lake County Code §9-17]
Felony DUI [§316.193(2)(b)]
State Court Facilities Fund
[§318.19(13)(a); Lake County
Code §9-12] ($30 for violations
listed in §318.17)
State Agency Law Enforcement
Radio Systems Trust Fund
[§318.18(17)] ($3 for violations
listed in §318.17).
Additional Costs to Dept. of
Health [§318.18(20)] for
violation §316.191, 316.192
Criminal Wildlife Violation
[§372.7015] ($250 if wildlife
offense committed while
violating Ch. 810)

App. 67
17. $

12.50

18. $

______

19. $

______

20. $ 201.00

21. $ 151.00
22. $

______

23. $

______

24. $

______

Crimes Compensation Trust
Fund [§938.04, 960.21] (5%
surcharge on all fines)
DUI/BUI Assessment [§938.07]
($135 for any violation of
§316.193 or §327.35)
Trafficking [§893.135]
(Mandatory fines $25,000 to
$500,000)
Additional Cost Domestic
Violence [§938.08] ($201 for
§784.011 asslt, 784.021
agg/asslt, 784.03 batt, 784.041
fel batt, 784.045 agg batt,
784.048 stalk, 784.07 asslt/batt
leo, 784.08 assl/batt 65, 784.081
asslt/batt spec off/emp, 784.082
asslt/batt jail, 784.083 asslt/batt
inspector, 784.085 batt child,
794.011 sex batt, 741.28 dv)
Additional Cost Rape Crisis
Centers [§938.085]
Additional Cost for Crimes
against Minors [§938.10] ($151
for §784.085, ch. 787, 794,
§796.03, 800.04, ch. 827,
§847.0145, 985.4045)
County Alcohol and Other Drug
Abuse Trust Fund [§938.13;
Lake County Code, §9-14] ($15,
misd. use of drugs or alcohol)
Investigative Costs [§938.27(7)]

App. 68
25. $ 100.00
26. $

______

27. $

______

Prosecution Costs [§938.27(8)]
(Not less than $100)
Incarceration Costs [§960.293]
($50/day or $250,000 if
capital/life felony, upon motion
to assess when # days served is
known, w/notice to defendant,
and hearing)
Prostitution/Solicitation
[§796.07(2)(f)] ($500 civil
penalty)

DISCRETIONARY
28. $ 250.00
Fines [§775.083] (Up to $15,000
for life felony; $10,000 for 1st or
2d degree felony; $5,000 for 3rd
degree felony; add $5
or $ ______ 9 W/H f o r § 3 1 6 . 0 6 1 , 3 1 6 . 1 9 2 ;
§775.0835 fine up to $10,000 for
injury or death CCTF)
29. $ ______
Alcohol and drug abuse
programs [§938.21] (Cost up to
fine amt: ch. 562, 567, 568, 893,
§316.193, 856.011, 856.015.)
30. $ ______
Assistance Grants for alcohol
and drug abuse programs
[§938.23] (Up to fine amt; same
crimes as line 22 above)
31. $ ______
Operating Trust Fund of the
FDLE [§938.25] ($100 for any
criminal violation of §893.13)

App. 69
32. $

______

Other: ______________________

Total $ 1,73750
DONE AND ORDERED in open court in Lake County,
Florida, this 26 day of September, 2011.
/s/
CIRCUIT COURT JUDGE
[SEAL]

STATE OF FLORIDA, COUNTY OF LAKE
I hereby certify, that the above and foregoing
is a true copy of the original filed in this
office.
NEIL KELLY, Clerk of Circuit Court
Deputy Clerk
BY /s/
Date 9/27/11
The quality of this image is
equivalent to the quality of the
document filed in this office.

Effective July 1, 2011

App. 70
OBTS Number 3501112731
Case Number 2010 CF 000982
Defendant CHESLEY E SAUNDERS
SENTENCE
As to Count(s) 1
The defendant, being personally before this court,
accompanied by the defendant’s attorney of record,
WANDA GREENE, and having been adjudicated guilty
herein or having adjudication withheld, and the court
having given the defendant an opportunity to be heard
and to offer matters in mitigation of sentence, and to
show cause why the defendant should not be sentenced
as provided by law, and no cause being shown
(Check one if applicable.)
: and the Court having on September 7, 2011,
deferred imposition of sentence until this date
9 and the Court having previously entered a
judgment in this case now resentences the
defendant
9 and the Court having placed the defendant on
probation/community control and having
subsequently revoked the defendant’s
probation/community control.
It Is The Sentence of The Court that:
: The defendant pay a fine of $250.00, pursuant to
section 775.083, Florida Statutes, plus $12.50 as

App. 71
the 5% surcharge required by section 938.04,
Florida Statues.
: The defendant is hereby committed to the custody
of the Department of Corrections.
9 The defendant is hereby committed to the custody
of the Sheriff of Lake County, Florida.
9 The defendant is sentenced as a youthful offender in
accordance with section 958.04, Florida Statutes.
To Be Imprisoned (Check one; unmarked sections
are inapplicable.):
9 For a term of natural life.
: For a term of 25 YEARS
9 Said SENTENCE SUSPENDED for a period of
subject to conditions set forth in this order.
If “split” sentence, complete the appropriate
paragraph.
9 Followed by a period of on probation/community
control under the supervision of the Department of
Corrections according to the terms and conditions of
supervision set forth in a separate order entered
herein.
9 However, after serving a period of imprisonment
in , the balance of the sentence shall be suspended
and the defendant shall be placed on
probation/community control for a period of under
supervision of the Department of Correction
according to the terms and conditions of

App. 72
probation/community control set forth in a separate
order entered herein.
In the event the defendant is ordered to serve
additional split sentence, all incarceration portions
shall be satisfied before the defendant begins service of
the supervision terms.
SPECIAL PROVISIONS
As to Count(s) 1
By appropriate notation, the following provisions apply
to the sentence imposed:
Mandatory/Minimum Provisions:
Firearm

9

It is further ordered that the 3year minimum imprisonment
provision of section 775.087(2),
Florida Statutes, is hereby
imposed for the sentence
specified in this count.

Drug
Trafficking

9

It is further ordered that the
mandatory
minimum
imprisonment provision of
section 893.135(1), Florida
Statues, is hereby imposed for
the sentence specified in this
count.

App. 73
Controlled
9
Substance
Within 1,000
Feet of School

It is further ordered that the 3year minimum imprisonment
provisions of section 893.13(1)(c)
1, Florida Statues, is hereby
imposed for the sentence
specified in this count.

Habitual
Felony
Offender

9

The defendant is adjudicated a
habitual felony offender and has
been sentenced to an extended
term in accordance with the
provisions of section
775.084(4)(a), Florida Statutes.
The requisite findings by the
court are set forth in a separate
order or stated on the record in
open court.

Habitual
9
Violent Felony
Offender

The defendant is adjudicated a
habitual violent felony offender
and has been sentenced to an
extended term in accordance
with the provisions of section
775.084(4)(b), Florida Statutes.
A minimum term of year(s)
must be served prior to release.
The requisite findings of the
court are set forth in a separate
order or stated on the record in
open court.

Law
9
Enforcement
Protection Act

It is further ordered that the
defendant shall served a
minimum of years before release

App. 74
in accordance with section
775.0823, Florida Statutes.
(Offenses committed before
January 1, 1994).
Capital Offense 9

It is further ordered that the
defendant shall serve no less
than 25 years in accordance
with the provisions of section
775.082(1), Florida Statutes.
(Offenses committed before
October 1, 1995).

Short-Barreled 9
Rifle, Shotgun,
Machine Gun

It is further ordered that the 5year minimum provisions of
section 790.221(2), Florida
Statutes, are hereby imposed for
the sentence specified in this
count. (Offenses committed
before January 1, 1994).

Continuing
Criminal
Enterprise

9

It is further ordered that the 25year minimum sentence
provisions of section 893.20,
Florida Statutes, are hereby
imposed for the sentence
specified in this count. (Offenses
committed before January 1,
1994).

Taking a Law
Enforcement
Officer’s
Firearm

9

It is further ordered that the 3
year mandatory minimum
imprisonment provision of
section 775.0857(1), Florida
Statutes, is hereby imposed for

App. 75
the sentence specified in this
court. (Offenses committed
before January 1, 1994).
Dangerous
9
Sexual Felony
Offender

It is further ordered that the 25YEAR minimum provisions of
section 794.0115, Florida
Statutes, are hereby imposed for
the sentence specified in this
count.

Sexual Offender/Sexual Predator
Determinations:
Sexual
Predator

9

The defendant is adjudicated a
sexual predator as set forth in
section 775.21, Florida Statutes.

Sexual
Offender

9

The defendant meets the
criteria for a sexual offender as
set forth in section
943.0435(1)(a)1a.,b.,c., or d.

Age of Victim

The victim was years of age at the
time of the offense.

Age of
Defendant

The defendant was years of age at
the time of the offense.

Relationship
to Victim

9

The defendant is not the
victim’s parent or guardian

Sexual Activity The offense 9 did 9 did not involve
[F.S. 800.04(4)] sexual activity.

App. 76
Use of Force
The sexual activity described herein
or Coercion
9 did 9 did not involve the use of
[F.S. 800.04(4)] force or coercion.
Use of Force
or Coercion/
unclothed
Genitals
[F.S. 800.04(5))

The molestation 9 did 9 did not
involve unclothed genitals or genital
area.
The molestation 9 did 9 did not
involve the use of force or coercion.

Other Provisions:
Criminal Gang 9
Activity

The felony conviction is for an
offense that was found,
pursuant to section 874.04,
Florida Statutes, to have been
committed for the purpose of
benefiting, promoting, or
furthering the interests of a
criminal gang.

Retention of
Jurisdiction

9

The court retains jurisdiction
over the defendant pursuant to
section 947.16(4), Florida
Statutes (1983).

Jail Credit

:

It is further ordered that the
defendant shall be allowed a
total of 21 days as credit for
time incarcerated before
imposition of this sentence.

App. 77
Credit for Time 9
Served
Resentencing
after Violation
of Probation or
Community
Control

It is further ordered that the
defendant be allowed ___ days
time served between date of
arrest as a violator following
release from prison to the date
of resentencing. The
Department of Corrections shall
apply original jail time credit
and shall compute and apply
credit for time served and
unforfeited gain time previously
awarded on case/count ________.
(Offenses committed before
October 1, 1989.)

9

It is further ordered that the
defendant be allowed ___ days
time served between date of
arrest as a violator following
release from prison to the date
of resentencing. The
Department of Corrections shall
apply original jail time credit
and shall compute and apply
credit for time served on
case/count _____________.
(Offenses committed between
October 1, 1989, and December
31, 1993).

9

The court deems the unforfeited
gain time previously awarded
on the above case/count forfeited
under section 948.06(7).

App. 78
9

The Court allows unforfeited
gain time previously awarded
on the above case/count. (Gain
time may be subject to forfeiture
by the Department of
Corrections under section
944.28(1).

9

It is further ordered that the
defendant be allowed __ days
time served between date of
arrest as a violator following
release from prison to the date
of resentencing. The
Department of Corrections shall
apply original jail time credit
and shall compute and apply
credit for time served only
pursuant to section 921.0017,
Florida Statutes, on case count
. (Offenses committed on or
after January 1, 1994)

Consecutive/
Concurrent
As to Other
Counts

9

It is further ordered that the
sentence imposed for this count
shall run (check one)
9 consecutive to 9 concurrent
with the sentence set forth in
count
of this case.

Consecutive/
Concurrent
As To Other
Convictions

:

It is further ordered that the
composite term of all sentences
imposed for the counts specified
in this order shall run

App. 79
(check one) 9 consecutive to
: concurrent with the following:
(check one)
:

any active
served.

sentence

9

specific sentences:

being

In the event the above sentence is to the
Department of Corrections, the Sheriff of LAKE
County, Florida, is hereby ordered and directed to
deliver the defendant to the Department of Corrections
at the facility designated by the department together
with a copy of this judgment and sentence and any
other documents specified by Florida statue.
The defendant in open court was advised of the
right to appeal from this sentence by filing notice of
appeal within 30 days from this date with clerk of this
court and the defendant’s right to the assistance of
counsel in taking the appeal at the expense of the State
on showing of indigency.
In imposing the above sentence, the court further
recommends
DONE AND ORDERED in open court at TAVARES,
LAKE County, Florida, this day of September 26, 2011.
/s/Mark A. Nacke
JUDGE: HONORABLE MARK A NACKE

App. 80
CERTIFICATE OF SERVICE
I HEREBY CERTIFY THAT A COPY OF THE
FOREGOING JUDGMENT AND/OR SENTENCE HAS
BEEN FURNISHED TO WANDA GREENE AND
ROBERT SIRIANNI, COUNSEL FOR THE
DEFENDANT, THIS DAY 4 DAY OF SEPTEMBER
OCTOBER, 2011.
/s/
DEPUTY CLERK
LAKE COUNTY CLERK’S OFFICE

App. 81
IN THE CIRCUIT COURT OF THE FIFTH
JUDICIAL CIRCUIT
IN AND FOR LAKE COUNTY, FLORIDA
UNIFORM COMMITMENT TO CUSTODY
OF DEPARTMENT OF CORRECTIONS
SPRING TERM 2011
CRIMINAL DIVISION
CASE NUMBER
2010 CF 000982
[Filed September 30, 2011]
__________________________
THE STATE OF FLORIDA )
PLAINTIFF
)
)
vs
)
)
CHESLEY E SAUNDERS )
DEFENDANT
)
__________________________ )
IN THE NAME AND BY THE AUTHORITY OF THE
STATE OF FLORIDA, TO THE SHERIFF OF SAID
COUNTY AND THE DEPARTMENT OF
CORRECTIONS OF SAID STATE, GREETING:
The above named defendant having been duly
charged with the offense(s) specified herein in the
above styled court, and the defendant having been duly
convicted and adjudged guilty of and sentenced for said
offense(s) by said Court, as appears from the attached
certified copies of Indictment/Information, Judgment
and Sentence which are hereby made parts hereof;

App. 82
Now therefore, this is to command you, the said
sheriff, to take and keep and, within a reasonable time
after receiving this commitment, safely deliver the
defendant, together with any pertinent Investigation
Report prepared in this case, into the custody of the
Department of Corrections of the State of Florida to
Reception Center designated by the Department of
Corrections; and this is to command you, the
Department of Corrections and other officials, to keep
and safely imprison the defendant for the term of said
sentence in the institution in the state correctional
system to which you may cause the defendant to be
conveyed or thereafter transferred. And these present
shall be your authority for the same. Herein fail not.
DEFENDANT KNOWN TO USE
THE FOLLOWING SOCIAL
SECURITY NUMBER: __________________
/s/Mark A. Nacke
JUDGE: HONORABLE MARK A NACKE
Judge of said Court, and also,
Neil Kelly Clerk and the Seal thereof,
on this date, September 26, 2011.
NEIL KELLY
[SEAL]

By /s/
Deputy Clerk

App. 83

APPENDIX I
U.S. Const. Amend V
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a grand jury, except in cases arising in
the land or naval forces, or in the militia, when in
actual service in time of war or public danger; nor shall
any person be subject for the same offense to be twice
put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use, without just compensation.
U.S. Const. Amend VI
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury
of the state and district wherein the crime shall have
been committed, which district shall have been
previously ascertained by law, and to be informed of
the nature and cause of the accusation; to be confronted
with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to
have the assistance of counsel for his defense.

App. 84
U.S. Const. Amend XIV
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
Section 2.
Representatives shall be apportioned among the
several states according to their respective numbers,
counting the whole number of persons in each state,
excluding Indians not taxed. But when the right to vote
at any election for the choice of electors for President
and Vice President of the United States,
Representatives in Congress, the executive and judicial
officers of a state, or the members of the legislature
thereof, is denied to any of the male inhabitants of such
state, being twenty-one years of age, and citizens of the
United States, or in any way abridged, except for
participation in rebellion, or other crime, the basis of
representation therein shall be reduced in the
proportion which the number of such male citizens
shall bear to the whole number of male citizens
twenty-one years of age in such state.

App. 85
Section 3.
No person shall be a Senator or Representative in
Congress, or elector of President and Vice President, or
hold any office, civil or military, under the United
States, or under any state, who, having previously
taken an oath, as a member of Congress, or as an
officer of the United States, or as a member of any
state legislature, or as an executive or judicial officer of
any state, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion
against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of
two-thirds of each House, remove such disability.
Section 4.
The validity of the public debt of the United States,
authorized by law, including debts incurred for
payment of pensions and bounties for services in
suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any
state shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the
United States, or any claim for the loss or
emancipation of any slave; but all such debts,
obligations and claims shall be held illegal and void.
Section 5.
The Congress shall have power to enforce, by
appropriate legislation, the provisions of this article.

App. 86
28 U.S.C. § 2254
behalf of a person in custody pursuant to the judgment
of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the
United States.
(b)
(1) An application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of a
Statecourt shall not be granted unless it appears that—
(A) the applicant has exhausted the remedies available
in the courts of the State; or
(B)
(i) there is an absence of available State corrective
process; or
(ii) circumstances exist that render such process
ineffective to protect the rights of the applicant.
(2) An application for a writ of habeas corpus may be
denied on the merits, notwithstanding the failure of the
applicant to exhaust the remedies available in the
courts of the State.
(3) A State shall not be deemed to have waived the
exhaustion requirement or be estopped from reliance
upon the requirement unless the State, through
counsel, expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted
the remedies available in the courts of the State, within
the meaning of this section, if he has the right under

App. 87
the law of the State to raise, by any available
procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf
of a person in custody pursuant to the judgment of a
Statecourt shall not be granted with respect to any
claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the Statecourt proceeding.
(e)
(1) In a proceeding instituted by an application for a
writ of habeas corpus by a person in custody pursuant
to the judgment of a Statecourt, a determination of a
factual issue made by a State court shall be presumed
to be correct. The applicant shall have the burden of
rebutting the presumption of correctness by clear and
convincing evidence.
(2) If the applicant has failed to develop the factual
basis of a claim in Statecourt proceedings, the court
shall not hold an evidentiary hearing on the claim
unless the applicant shows that—
(A) the claim relies on—

App. 88
(i) a new rule of constitutional law, made retroactive to
cases on collateral review by the Supreme Court, that
was previously unavailable; or
(ii) a factual predicate that could not have been
previously discovered through the exercise of due
diligence; and
(B) the facts underlying the claim would be sufficient to
establish by clear and convincing evidence that but for
constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying
offense.
(f) If the applicant challenges the sufficiency of the
evidence adduced in such Statecourt proceeding to
support the State court’s determination of a factual
issue made therein, the applicant, if able, shall produce
that part of the record pertinent to a determination of
the sufficiency of the evidence to support such
determination. If the applicant, because of indigency or
other reason is unable to produce such part of the
record, then the State shall produce such part of the
record and the Federal court shall direct the State to do
so by order directed to an appropriate State official. If
the State cannot provide such pertinent part of the
record, then the court shall determine under the
existing facts and circumstances what weight shall be
given to the State court’s factual determination.
(g) A copy of the official records of the Statecourt, duly
certified by the clerk of such court to be a true and
correct copy of a finding, judicial opinion, or other
reliable written indicia showing such a factual

App. 89
determination by the State court shall be admissible in
the Federal court proceeding.
(h) Except as provided in section 408 of the Controlled
Substances Act, in all proceedings brought under this
section, and any subsequent proceedings on review, the
court may appoint counsel for an applicant who is or
becomes financially unable to afford counsel, except as
provided by a rule promulgated by the Supreme Court
pursuant to statutory authority. Appointment of
counsel under this section shall be governed by section
3006A of title 18.
(i) The ineffectiveness or incompetence of counsel
during Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a
proceeding arising under section 2254.

